STATE OF INDIANA

OFFICE OF THE ATTORNEY GENERAL
CURTIS T. HILL, JR.
INDIANA ATTORNEY GENERAL

INDIANA GOVERNMENT CENTER SOUTH, FIFTH FLOOR
302 WEST WASHINGTON STREET l INDIANAPOLIS, IN 46204-2770
www.AttorneyGeneral.IN.gov

TELEPHONE: 317.232.6201
FAX: 317.232.7979

May 8, 2020
Scott Harris, Clerk
Supreme Court of the United States
One First Street, N.E.
Washington, DC 20543
Re:

Friend v. Indiana, No. 19-1214
Amended Motion for Extension of Time

Dear Mr. Harris:
As counsel of record in the above-referenced case, I am responsible for preparing a
response to the Petition for Writ of Certiorari, currently due May 14, 2020. Our previous motion
asked for an extension of thirty days to June 13, 2020. Petitioner’s Counsel of Record, J. Carl
Cecere, has consented only to a twenty day extension, so please replace our initial request with
this amended request for an additional twenty days, to June 3, 2020, to complete and file that brief.
Even giving this matter priority, Counsel for Respondent will be unable to prepare a
satisfactory response to the Petition by the current date due owing to obligations in other cases in
this Court, the Seventh Circuit Court of Appeals, and the Indiana state courts. We have also been
advised that the National Association of Criminal Defense Lawyers intends to file a brief of amicus
curiae in support of the Petition for Certiorari. An enlargement of twenty days is reasonably
necessary for the State to prepare an adequate response.
Thank you for your consideration.
Respectfully submitted,

Thomas M. Fisher
Solicitor General of Indiana
Counsel of Record for Respondent
cc:

J. Carl Cecere

